<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2014 BUDGET: ADMINISTRATION PRIORITIES FOR THE U.S. ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                THE PRESIDENT'S FISCAL YEAR 2014 BUDGET:
                   ADMINISTRATION PRIORITIES FOR THE
                  U.S. ENVIRONMENTAL PROTECTION AGENCY
=======================================================================

                                (113-19)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2013

                               __________

                       Printed for the use of the

             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PRINTING OFFICE
81-151                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY

                                  (ii)



            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           DONNA F. EDWARDS, Maryland
SHELLEY MOORE CAPITO, West Virginia  JOHN GARAMENDI, California
CANDICE S. MILLER, Michigan          ANN KIRKPATRICK, Arizona
ERIC A. ``RICK'' CRAWFORD,           LOIS FRANKEL, Florida
Arkansas,                            ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
RICHARD L. HANNA, New York           EDDIE BERNICE JOHNSON, Texas
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
JEFF DENHAM, California              ELIZABETH H. ESTY, Connecticut
REID J. RIBBLE, Wisconsin            MICHAEL H. MICHAUD, Maine
THOMAS MASSIE, Kentucky              RICHARD M. NOLAN, Minnesota
STEVE DAINES, Montana                JANICE HAHN, California
TOM RICE, South Carolina             SEAN PATRICK MALONEY, New York
MARKWAYNE MULLIN, Oklahoma           NICK J. RAHALL, II, West Virginia
MARK MEADOWS, North Carolina           (Ex Officio)
RODNEY DAVIS, Illinois
VACANCY
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Nancy K. Stoner, Acting Assistant Administrator, Office of Water, 
  U.S. Environmental Protection Agency...........................     5
Mathy Stanislaus, Assistant Administrator, Office of Solid Waste 
  and Emergency Response, U.S. Environmental Protection Agency...     5

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Nancy K. Stoner..................................................    32
Mathy Stanislaus.................................................    39

                       SUBMISSIONS FOR THE RECORD

Hon. Timothy H. Bishop, a Representative in Congress from the 
  State of New York, request to submit the following report: U.S. 
  Government Accountability Office, Funding for 10 States' 
  Programs Supported by Four Environmental Protection Agency 
  Categorical Grants, GAO-13-504R (May 6, 2013)..................    58
Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, request to submit a letter that he and 16 other Members 
  of Congress signed and sent to Hon. Bob Perciasepe, Acting 
  Administrator, U.S. Environmental Protection Agency, that 
  expressed concern over EPA's release of farmers' private 
  information to environmental groups, April 17, 2013............    11
U.S. Environmental Protection Agency, responses to questions for 
  the record from the following Representatives:

    Hon. Bob Gibbs, of Ohio......................................    49
    Hon. Duncan Hunter, of California............................    52
    Hon. Don Young, of Alaska....................................    55
    Hon. Eric A. ``Rick'' Crawford, of Arkansas..................    57


[GRAPHIC] [TIFF OMITTED] 81151.001

[GRAPHIC] [TIFF OMITTED] 81151.002

[GRAPHIC] [TIFF OMITTED] 81151.003

[GRAPHIC] [TIFF OMITTED] 81151.004

[GRAPHIC] [TIFF OMITTED] 81151.005

[GRAPHIC] [TIFF OMITTED] 81151.006

[GRAPHIC] [TIFF OMITTED] 81151.007

[GRAPHIC] [TIFF OMITTED] 81151.008

[GRAPHIC] [TIFF OMITTED] 81151.009


                    THE PRESIDENT'S FISCAL YEAR 2014

                 BUDGET: ADMINISTRATION PRIORITIES FOR

                THE U.S. ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:25 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The Subcommittee on Water Resources and 
Environment of the Committee on Transportation and 
Infrastructure will come to order.
    Today, we are having a hearing on ``The President's Fiscal 
Year 2014 Budget: Administration Priorities for the U.S. 
Environmental Protection Agency.'' We have two witnesses on our 
first and only panel.
    First, I want to just do a unanimous consent for any 
followup for the records that we may have. Seeing no objection, 
so ordered for that.
    And I will start with my opening statement.
    First of all, I would like to thank everybody for coming to 
the hearing today.
    When Congress wrote the Clean Water Act and other Federal 
environmental statutes some 40 years ago, it envisioned the 
Federal Government and the States would be equal partners in 
solving the Nation's environmental problems. For many years, 
that Federal-State partnership has worked well.
    However, in the past few years, we have seen a substantial 
change in the approach taken by the Environmental Protection 
Agency that is now serving to undermine the balance of the 
Federal-State partnership that has long existed. EPA is now 
insisting on imposing its Federal will on States, local 
government, and the private regulatory community with a heavy-
handed, Federal, top-down, one-size-fits-all policy, regulatory 
approach that is taking away the flexibility they need to 
address their environmental issues.
    EPA is aggressively moving forward on several regulatory 
fronts simultaneously, with the result that States and local 
governments all across the Nation, as well as the private 
regulating community, are facing increasing regulatory 
enforcement and financial pressures to address a multitude of 
burdensome regulatory requirements that recently have become 
EPA priorities.
    There has been an exponential increase in regulations 
coming out of the EPA related to this subcommittee's 
jurisdiction. These include more stringent and widespread 
regulation of stormwater discharges, nutrients, and other 
pollutants, which could lead to many communities having to 
install and operate, at great expense, state-of-the-art 
treatment, removal, and prevention technologies.
    I am particularly concerned about the EPA's use of so-
called guidance as a means of short-circuiting the process for 
changing Agency policy without following a proper transparent 
and unbiased rulemaking process. Much of this so-called 
guidance amounts to being de facto rules instead of advisory 
guidelines.
    Many of these regulatory efforts are based on questionable 
science and questionable authority under the law. Many of the 
efforts stand to substantially increase the regulatory burdens 
for States and local governments, as well as businesses, 
especially small businesses.
    All of these initiatives are piling up additional layers of 
regulatory requirements and economic burdens that our 
communities are having to somehow deal with. This is making a 
mockery of the administration's regulatory review initiative to 
reduce regulatory burdens in our country.
    A large portion of these regulatory mandates are going 
unfunded by the Federal Government, with the result that many 
local communities and private entities are now increasingly 
struggling with how to pay for complying with these mandates. 
EPA's aggressive actions have created financial pressures and 
regulatory uncertainty for States, local governments, and the 
regulator community and have a chilling effect on the Nation's 
economy and job creation.
    The EPA budget put forth from the administration for fiscal 
year 2014 does nothing to alleviate my concerns. While the EPA 
is imposing more unfunded regulatory burdens on communities, 
businesses, and citizens, the administration at the same time 
is calling for a reduction in spending for many of the programs 
that assist communities in their efforts to come into 
compliance with these regulations.
    While the administration is willing to increase enforcement 
spending, it is cutting spending for compliance assistance 
efforts. And while the administration is willing to allow the 
EPA to continue imposing regulatory mandates, the 
administration is willing to cut financial assistance to our 
communities through the Clean Water SRF and other programs 
needed to help pay for complying with these mandates.
    Hence, what we have here is a Federal agency that will add 
to the burden of rules and regulations and reduce programs to 
help folks come into compliance but will also put more boots on 
the ground to track down those who cannot come into compliance, 
with little or no benefit to the environment.
    And what we have is an agency that has a reckless disregard 
for the privacy interests of both individual citizens and 
businesses. The EPA has amply demonstrated this recently when 
it leaked personal and confidential business information 
related to farmers not just once but twice. This is Government 
at its worst.
    I want clean water as much as anyone, but I recognize that 
we have to have a strong economy so we can be able to afford to 
invest in new programs that regulations require. Today is not 
the day to put more burdens on the American people. We need to 
make significant progress in creating long-term jobs and a 
stronger economy before we can tolerate more expensive 
regulations.
    At this time, I would like to recognize Mr. Bishop for any 
remarks he may have.
    Mr. Bishop. Thank you very much, Mr. Chairman. I appreciate 
you holding this hearing on the Environmental Protection 
Agency's fiscal year 2014 budget request.
    Very few Federal agencies are as praised or as vilified as 
the EPA. Depending on your point of view, this agency, which 
was created by a Republican administration and charged by 
Congress with safeguarding the health of the public and the 
environment, is often portrayed either as the last safeguard of 
the natural environment or an overzealous impediment to 
unfettered industrial growth. I suppose the reality is 
somewhere in the middle, where this agency takes concerted 
effort in reaching a sustainable balance between the health of 
the public and the health of the environment and the health of 
the economy.
    I have long made the case that you do not have to choose 
between economic growth and protection of public health and the 
environment. In my congressional district along the eastern tip 
of Long Island, the health of the economy and the health of the 
environment are one and the same. People and businesses are 
drawn to my district when the quality of the environment 
improves, whether through visits to our Long Island beaches or 
through supporting a robust fishing industry. Yet when the 
overall health of the Long Island environment declines, so, 
too, does the health of our local economy.
    I hope we can agree on the need to balance healthy economic 
growth and protecting the health of the public and the 
environment. Unfortunately, ensuring this careful balance will 
be more difficult now that the EPA must face the budgetary cuts 
dictated by the recently passed Republican budget. Just 
yesterday, the House Appropriations Committee released its 
302(b) allocation for EPA's appropriations bill that mandated 
an 18-percent cut below the fiscal year 2013 appropriated 
levels.
    And the slide shows these cuts relative to fiscal 2013.
    The number is about 20 percent below the President's 
request for the Agency for fiscal year 2014 and about 14 
percent below current sequestered funding levels. An 18-percent 
cut to EPA's budget will result in over $1.4 billion less for 
the Agency for fiscal year 2014. To put this in perspective, 
this would decrease the EPA's overall budget to the actual 
level it received in fiscal year 1997, not reflecting 
adjustments for inflation.
    But it gets worse. Over the remaining years of the House 
Republican budget, the EPA would face additional annual cuts 
ranging between 12 to 16 percent below the fiscal year 2013 CBO 
budget baseline.
    It is without question that withholding resources from EPA 
will have an impact on the Agency's ability to carry out its 
statutory obligations. As the Agency witnesses will later 
testify, it has had to prioritize where to place its declining 
resources and has had to make tough choices in not funding 
programs and policies that are important to our businesses, our 
industries, and our communities.
    For example, as we discussed in our April budget hearing 
related to the Corps of Engineers, a significant number of 
businesses and industries petitioned Federal regulatory 
agencies for Clean Water Act permits. However, under the 
Republican budget and the proposed appropriations level, both 
the regulatory office of the Corps and the permits division of 
the EPA would face potentially significant budget cuts. As a 
result, we should expect that Clean Water Act permit review 
times will take longer as a result of underfunded staffs.
    Similarly, if the Republican budget discretionary cuts are 
implemented uniformly, we should expect continued cuts to other 
programs with widespread support from our communities, such as 
the Clean Water and Drinking Water State Revolving Funds, the 
Superfund cleanup program, and the Brownfields remediation 
program. In each example, our communities can point to specific 
projects that, if implemented, would improve the overall health 
of the community and protection of the environment. However, 
these projects continue to languish for lack of available 
funding.
    I have heard others say that cutting the budget of EPA will 
not have an adverse impact on the environment because any 
decreases in Federal protection of the environment will be more 
than made up for by individual States. However, a report that I 
recently received from the Government Accountability Office 
reveals that quite the opposite is often true.
    For example, GAO found that cuts to Federal grants that 
support State programs, such as section 106 of the Clean Water 
Act, can have equal adverse impacts on State environmental 
program implementation and are especially problematic in those 
States where local budgetary challenges are even more 
pronounced than the Nation's.
    In specific examples, GAO identified several States where 
cuts to the Federal environmental grant programs will result in 
reductions to State environmental staff, cutting less critical 
programs, and increasing State fees. State officials noted that 
the effect from these cuts will include additional State 
permitting backlogs, decreased capacity to conduct permitting 
and monitoring activities, and the loss of compliance outreach 
and technical assistance activities.
    Mr. Chairman, I ask unanimous consent to make this GAO 
report part of today's hearing.
    Mr. Gibbs. So ordered.
    [The report entitled ``Funding for 10 States' Programs 
Supported by Four Environmental Protection Agency Categorical 
Grants,'' can be found on page 58.]
    Mr. Bishop. Thank you, Mr. Chairman.
    In conclusion, Mr. Chairman, it seems that we are at a 
crossroads on finding the proper balance in protecting the 
health of our communities, our environment, and our local 
economies. One path would place fiscal austerity over all other 
priorities and would have a significant and adverse impact on 
our communities, our local economies, and our industries, and 
place at risk the improvements we have made over the decades in 
protecting public health and the environment. The other path 
would call for tough choices but would recognize that wise 
investments in our Nation's infrastructure and our communities 
will have lasting rewards.
    I welcome our witnesses here this afternoon, and I look 
forward to their testimony.
    I yield back, Mr. Chairman. Thank you.
    Mr. Gibbs. OK. At this time, I want to welcome our two 
witnesses.
    Our first witness is Ms. Nancy Stoner. She is the Acting 
Assistant Administrator, Office of Water, the United States 
Environmental Protection Agency.
    And our second witness is Mr. Mathy Stanislaus, Assistant 
Administrator of the Office of Solid Waste and Emergency 
Response, United States Environmental Protection Agency.
    At this time, Ms. Stoner, the floor is yours. Welcome.

 TESTIMONY OF NANCY K. STONER, ACTING ASSISTANT ADMINISTRATOR, 
  OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; AND 
  MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, OFFICE OF SOLID 
  WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. Stoner. Good afternoon, Chairman Gibbs, Ranking Member 
Bishop, and members of the subcommittee. I am Nancy Stoner. I 
am the Acting Assistant Administrator for the Office of Water 
at the U.S. EPA. Thank you for the opportunity to speak with 
you today about the President's fiscal year 2014 budget request 
for EPA's National Water Program.
    The President's request reflects the EPA's ongoing efforts 
to protect the Nation's clean water and identify opportunities 
for savings in these challenging economic times. The requested 
level of $3.3 billion allows the National Water Program to 
continue to spur communities, improve infrastructure, drive 
innovation, spur technology, increase sustainability, and 
strengthen partnerships with States, tribes, and local 
governments.
    One of the EPA's highest priorities is supporting 
communities in meeting their clean water and drinking water 
goals. One way we do this is through EPA's Clean Water and 
Drinking Water State Revolving Funds, or SRFs. These funds 
provide critical funding to States and local entities to 
improve wastewater and drinking water infrastructure and reduce 
water pollution.
    The President's fiscal year 2014 budget request includes 
$1.095 billion for the Clean Water SRF and $817 million for the 
Drinking Water SRF. This funding will enable States and tribes 
to begin approximately 450 clean water and approximately 370 
drinking water projects nationally.
    The President's request, when combined with enacted 
appropriations, including the American Recovery and 
Reinvestment Act, totals approximately $20 billion invested by 
the Federal Government in the SRFs over the last 6 years.
    The EPA is also working with municipalities across the 
country to expand and institutionalize the use of integrated 
planning that considers a full range of infrastructure 
alternatives, including green infrastructure, so that priority 
investments are made first and at the lowest lifecycle cost.
    Despite the fiscal challenges we face, supporting our State 
and tribal partners, the primary implementers of environmental 
programs, remains a priority for EPA. Funding for States and 
tribes through the State and Tribal Assistance Grants account, 
or STAG, is once again the largest percentage of the EPA's 
budget request, at nearly 40 percent in 2014.
    Total National Water Program categorical grant funding for 
the fiscal year 2014 budget request is $558.9 million, a $14.9 
million increase from the fiscal year 2012 enacted level.
    The fiscal year 2014 request includes $258.7 million for 
water pollution control grants to States, tribes, and 
interstate agencies, an increase of $20 million over fiscal 
year 2012 levels. In fiscal year 2014, the EPA will designate 
$15 million of this increase for States to strengthen their 
nutrient management efforts. This will help States tackle 
nutrient pollution, which has caused serious environmental and 
human health issues while harming the economy. These additional 
funds will help ensure the effectiveness of State environmental 
programs and support economic growth.
    Finally, the President's budget also requests continued 
funding for critical regional restoration and community 
programs in which the EPA works in close coordination with 
States and other stakeholders. These include programs working 
to restore the Chesapeake Bay, the Great Lakes, and America's 
urban waters.
    Thank you, Chairman Gibbs, Ranking Member Bishop, and 
members of the subcommittee, for this opportunity to discuss 
the President's fiscal year 2014 budget request for EPA's 
National Water Program. The President's budget reflects the 
EPA's ongoing efforts to identify potential savings while 
continuing our commitment to the core mission of sustaining 
water quality, public health, and our economy.
    We look forward to continuing our work with the 
subcommittee to ensure clean and safe water for all Americans.
    I will be happy to answer any questions you may have.
    Mr. Gibbs. Thank you.
    Mr. Stanislaus, the floor is yours. Welcome.
    Mr. Stanislaus. Good afternoon, Chairman Gibbs, Ranking 
Member Bishop, and members of the subcommittee. I am Mathy 
Stanislaus, Assistant Administrator for the Office of Solid 
Waste and Emergency Response at the United States Environmental 
Protection Agency. Thank you for the opportunity to appear 
today to discuss EPA's proposed budget for OSWER's programs 
falling under the subcommittee's jurisdiction.
    The President's fiscal year 2014 budget demonstrates that 
we can make critical investments to strengthen the middle 
class, create jobs, and grow the economy, while continuing to 
cut the deficit in a balanced way. The President's budget 
reinforces our firm commitment to keep America's communities 
clean and healthy, while also taking into consideration the 
difficult fiscal situation facing State, local, and tribal 
programs.
    To clean up our communities, the President is proposing 
investments that clean up contamination and promote economic 
development and job creation. The President's fiscal year 2014 
budget proposes $156.3 million for OSWER's Brownfields program 
to support State and tribal cleanup programs and to support 
planning, cleanup, job training, and redevelopment of 
brownfields properties, especially in underserved and 
disadvantaged communities.
    EPA's Brownfields program use this funding to successfully 
leverage economic investment. On average, nearly $18 is 
leveraged in private and public funding for every EPA dollar 
expended. And more than 85,000 jobs have been leveraged through 
brownfields project funding since the inception of the 
Brownfields program.
    Another effort to help turn formerly contaminated sites 
into community assets and provide economic development and job 
creation opportunities is our RE-Powering America's Land 
Initiative, which was recently recognized by Harvard's Kennedy 
School as one of the top 25 innovations in the American 
Government. This is an initiative to work with energy 
developers and financiers to site renewable energy on 
contaminated properties. This has resulted in the installation 
of 250 megawatts of installed capacity, which can power 
approximately 35,000 homes across the United States.
    The budget also requests $1.18 billion for Superfund 
cleanup efforts across the country, which represents a 
reduction from fiscal year 2012 enacted levels and reflects the 
hard budget choices that are being made. Superfund removal and 
homeland security program funding levels are maintained, with 
focused reductions associated with long-term remediation in the 
Superfund remedial program.
    The value and benefit of Superfund resources are 
significant. Academic research published in the American 
Economic Review found Superfund cleanups reduced the incidence 
of congenital abnormalities by roughly 20 to 25 percent for 
those living within 5,000 meters of a site. And a study 
completed by researchers at Duke University and the University 
of Pittsburgh found that the deletion of sites from the 
national priority list of Superfund sites significantly raises 
the value of owner-occupied housing within 3 miles of a site by 
approximately 18.6 percent to 24.5 percent.
    A reduction in the Superfund remedial program will result 
in only a limited number of new EPA-lead construction project 
starts in fiscal year 2014. EPA will balance its Superfund 
remedial pipeline while focusing on the completion of ongoing 
projects rather than new starts. The cumulative effect of 
funding reductions in the recent years will potentially delay 
construction work at approximately 40 to 45 new construction 
projects by the end of fiscal year 2014.
    Notwithstanding the constraints on the appropriated funding 
levels, we have been particularly successful in leveraging 
cleanup funding through the use of responsible party 
settlements to establish site-specific special accounts. 
Through the end of fiscal year 2012, EPA has collected more 
than $4 billion, including interest, in more than 1,000 site-
specific special accounts.
    Of this amount, EPA has disbursed or obligated more than 
$2.5 billion for site response actions and developed a 
multiyear plan for nearly 100 percent of the remaining funds in 
the special accounts available. In total, through fiscal year 
2012, EPA has secured more than $37 billion in responsible-
party commitments for site cleanup and reimbursement of past 
costs.
    The Superfund removal and emergency response programs 
conducted or provided oversight for 428 EPA-led and 
responsible-party cleanup actions in fiscal year 2012. The 
fiscal year 2014 target for EPA-led removal actions is 170 and 
is the target for responsible-party removal actions, as well.
    EPA's emergency response programs will continue to maintain 
capability to respond to imminent threats to human health, 
including incidents of national significance. EPA's oil spill 
program is designed to protect inland waterways through oil 
spill prevention, preparedness, and enforcement activities 
associated with more than 600,000 nontransportation-related oil 
storage facilities that EPA regulates. There are approximately 
20,000 oil spills reported to the Federal Government on a 
yearly basis.
    Recognizing the importance that this sector has brought to 
our economy and to our environment, the fiscal year 2014 budget 
requests a $2.5 million increase for OSWER's oil spill program, 
which would fund efforts to broaden and expand prevention and 
preparedness activities, particularly with respect to the 
inspection of high-risk facilities and the development and 
implementation of a third-party audit program.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    Mr. Gibbs. Thank you.
    I will yield myself 5 minutes for the first questions.
    Ms. Stoner, I am really concerned about the EPA's release, 
twice now, of animal livestock farmers around the country, I 
think about 18,000 of them, of their private emails, their 
private information, contact information, to environmental 
groups such as Earth Justice and the Natural Resources Defense 
Council and others. And I know that the EPA has requested that 
the information be sent back, that your agency has admitted 
they made a mistake.
    I sent a letter, along with 16 other congressmen here, 
earlier in April requesting what your agency is doing to make 
sure this doesn't happen again. Of course, after I sent the 
letter, it happened again. And I haven't had a response, we 
haven't had a response back to the letter.
    But, also, in the letter, we requested that a full 
investigation be held and people held accountable. Because, you 
know, these livestock farmers have to have trust in your agency 
with this information. And this could really be dangerous to 
their operations and their personal security and the security 
of their operations, because some of these groups sometimes are 
radicalized. And that is a concern.
    So my first question is, you know, what are you doing about 
that to make sure it doesn't happen again? And are you holding 
an investigation? And will there be people held accountable?
    Ms. Stoner. Thank you, Mr. Chairman. I appreciate the 
opportunity to discuss this issue with you.
    As you know, what did happen is that the Agency released 
information that we believed at the time was publicly available 
information. We had asked States only for publicly available 
information. Under the FOIA, all requesters are treated 
equally, in terms of the data being requested to them. And we 
did release that information. And we believed, upon careful 
scrutiny of the information, that there was some information in 
there that there were privacy concerns associated with.
    We have been in discussions with the agricultural community 
ever since then about that and have made redactions to that 
release to address those privacy concerns that they raised and 
that we take very seriously. We also requested the information 
back and have received it.
    We are continuing to work to make sure that we have very 
thorough, proper FOIA training for everyone in the Office of 
Water, including on privacy issues like those that you asked 
about today, and have set up a regular group to meet with the 
agricultural community to discuss the data and how we should 
move forward together.
    Mr. Gibbs. You said you asked for the information back?
    Ms. Stoner. That is correct.
    Mr. Gibbs. OK. That is a little preposterous. I am sure 
that this information was probably sent out, copies were made, 
probably sent out to other organizations. Just be aware of 
that, that there might be instances of concerns.
    But you are looking into it, are you actually doing a full 
investigation to make sure your personnel will have FOIA 
training, but I think it goes far beyond training. Is anybody 
being held accountable? Are there going to be any disciplinary 
actions or anything like that?
    Ms. Stoner. We believe we have dealt appropriately with 
this specific incident at issue, at this point. And we have 
redacted the information that we believe to be appropriate to 
be redacted at this time and have received back the earlier 
information. So we will be looking prospectively----
    Mr. Gibbs. What did you do to handle it? You say you 
believe you handled it appropriately. What did you do?
    Ms. Stoner. Very carefully reviewed all of that 
information, discussed it with the agricultural stakeholders, 
among others----
    Mr. Gibbs. Agricultural stakeholders. How about the people 
who work for you that disseminated that information?
    Ms. Stoner. Absolutely. We have had many discussions about 
that to ensure that the concerns that were raised by the 
agricultural stakeholders were ones that our staff is very 
cognizant of. And we will be ensuring, moving forward, that we 
take those types of concerns into account.
    Mr. Gibbs. I think you should do as much as you can, 
because it is obvious what is going on in some other agencies. 
And there is a real lack of public trust and confidence in our 
Government right now, and things like this make people feel 
uneasy. And it can be, like I said, a very dangerous situation 
for those producers out there.
    Ms. Stoner. Yes. The public trust is very important to us, 
and we will be making sure that we are treating everyone fairly 
at EPA under the FOIA, as we are required to do.
    Mr. Gibbs. And along those lines, also came up the issue 
about some of the Freedom of Information requests, that I saw 
some reports that some groups are being charged for those 
requests and some groups aren't. Is that a practice that the 
EPA is doing?
    Ms. Stoner. Again, we have policies under the FOIA about 
when to grant a fee waiver. And that will be part of the 
training, to ensure that everyone is fully briefed on those 
policies to make sure, again, that we treat everyone fairly.
    Mr. Gibbs. OK.
    Quickly--and my time is up, but I want to follow through on 
this. What are those policies to make sure that everybody is 
treated fairly? I mean, if some groups come in and ask for a 
Freedom of Information request and you deem it that is in the 
public interest, will you still charge a fee for those 
requests, for the paperwork? Do you have a set program, or 
everybody gets charged?
    Ms. Stoner. I believe that there are policies about 
treating, for example, the media differently than others. But 
we will be making sure that the policies that exist, which, in 
general, treat----
    Mr. Gibbs. Could you send to the committee a copy of those 
policies?
    Ms. Stoner. We would be happy to follow up with you on 
that.
    Mr. Gibbs. OK. Appreciate that.
    Just before I yield to my ranking member, the letter that 
myself and 16 other Members of Congress sent to the Acting 
Administrator, I ask unanimous consent to put in the record.
    Seeing none, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 81151.010
    
    [GRAPHIC] [TIFF OMITTED] 81151.011
    
    Mr. Gibbs. And I yield to Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Stanislaus, I am going to start with you. I am very 
concerned about the Superfund and the inadequacy of funding to 
the Superfund. I mean, just to review, we have stopped taxing 
industries that manufacture and sell hazardous substances in 
1995. Superfund was fully spent down in 2004. And since 2004, 
all Superfund cleanup activities have been funded by General 
Fund taxpayer-generated revenue.
    And it seems to me we have an analogous situation; we have 
something, as you know, called the Oil Spill Liability Trust 
Fund. We tax those industries that refine and import petroleum. 
We tax them 8 cents a barrel. And so we are saying that if you 
are going to profit from the importation or sale of petroleum-
related projects, you have to bear the burden of the cleanup if 
something goes awry. It is something that the Congress has 
authorized, something that the Congress leaves in place.
    And so my question, I guess, to you but also to my 
colleagues is, why is it that we are willing to give the 
companies that manufacture and sell hazardous materials, why 
are we willing to give them a free pass and we are not willing 
to give other elements of the industry that same free pass?
    So that is question number one to you, as I say, but I 
really am also asking it rhetorically of my colleagues.
    And the second question is, what is the ongoing impact of 
the inadequacy of funding? My understanding is that we have 40 
to 45 Superfund sites ready to go for construction, but we 
don't have sufficient funds to go there. And we have some 1,600 
identified Superfund sites across the country that we are not 
addressing because of inadequate funding.
    So if you could answer both those questions.
    Mr. Stanislaus. Sure.
    With respect to those parties who are responsible for 
contamination of the site, within our program we pursue 
responsible parties as the path of first course.
    The President has also proposed the reinstatement of the 
Superfund tax, focusing on those entities that are associated 
with the creation of Superfund sites.
    Thirdly, we are working on putting in place a financial 
assurance mechanism. And we have identified a number of 
categories of industry, so that entities that have been 
associated with the contamination of Superfund sites and where 
Superfund has been used to clean up those sites, that those 
industries would have a financial assurance mechanism in place 
that, should contamination happen, we would have a private 
instrument to do the cleanup.
    Mr. Bishop. If I could interrupt you?
    Mr. Stanislaus. Yes, sure.
    Mr. Bishop. There exists, we all know, these so-called 
orphan sites----
    Mr. Stanislaus. Yes.
    Mr. Bishop [continuing]. Sites for whom we cannot either 
identify or pursue a responsible party. Of the 1,600 Superfund 
sites that have been identified, can you estimate how many of 
them are so-called orphan sites?
    Mr. Stanislaus. I don't have that number here, but I can 
get that to you. What I can say, of the backlog at the end of 
this fiscal year, those all would be in the orphan category.
    Mr. Bishop. They are all orphan sites, and if we are going 
to act on them, we are going to act on them with taxpayer-
generated General Fund revenue, correct?
    Mr. Stanislaus. That is correct.
    Mr. Bishop. And whoever created the mess is going to walk 
away--well, has already walked away.
    Mr. Stanislaus. Well, I mean, though, the reason why----
    Mr. Bishop. Yes. The answer is yes.
    Mr. Stanislaus. Yes. And the reason why they are orphan 
sites, the responsible party is not around anymore for them to 
take responsibility for the cleanup.
    Mr. Bishop. Precisely.
    Mr. Stanislaus. Yes.
    Mr. Bishop. OK. Thank you.
    All right. Ms. Stoner, you indicated in your testimony that 
even with reduced expenditures brought on by the fiscal climate 
we find ourselves in, that--and your measure of reduced 
expenditures was the President's budget.
    Ms. Stoner. Yes.
    Mr. Bishop. If that number were to be reduced an 
additional--by 18 percent, which is what the 302(b) allocation 
is that came out of the Interior Appropriations Subcommittee 
yesterday, would the department be able to continue to pursue 
and accomplish its core mission?
    Ms. Stoner. Obviously, that would be very difficult for us. 
And the programs that we run that are so important to the 
American public in ensuring that they have clean waters to swim 
in and safe drinking water, fish that they can eat, all of 
those programs that are so important to the American public, to 
the economy, and so forth. And we would have very serious 
difficulties.
    There was a lot of concern expressed about our ability to 
work with our State partners, and we made a lot of choices in 
the President's budget for this year to continue programs 
uncut, like the 319 Nonpoint Source Program, or to actually 
increase programs, like the 106 program that gives money to the 
States to run their clean water programs, or the PWSS, which 
gives money to States to run drinking water programs.
    With cuts like that, I don't know how we could continue to 
support that great work that our State partners do, working 
with the Agency to implement the Clean Water Act and Safe 
Drinking Water----
    Mr. Bishop. I have exceeded my time, but if I could just 
ask one more question. If I could ask each of you to provide 
the committee, with as much specificity as possible, the impact 
that implementation of an across-the-board 18-percent cut would 
have on the ability of the department to pursue its core 
mission.
    Ms. Stoner. Of course.
    Mr. Stanislaus. Yes.
    Mr. Bishop. Thank you very much.
    I yield back, Mr. Chairman. Thank you very much.
    Mr. Gibbs. Mrs. Capito?
    Mrs. Capito. Thank you.
    And I want to thank the witnesses for being here.
    Ms. Stoner, the October 6th, 2011, and July 31st, 2012, NMA 
v. Jackson decision struck down the interagency memorandum of 
understanding and guidance and made clear that such attempts 
were outside of EPA's statutory authority and that the Corps 
alone can implement.
    I am wondering, are you--and I have asked you this question 
before, but I would like an update. How is the EPA working to 
ensure that this is being implemented? Where are you on that?
    Ms. Stoner. So we are no longer relying on that document 
and on the implementation procedures that we had worked out 
with other Federal agencies that the Federal court struck down. 
That case is, of course, on appeal and is a matter in 
litigation.
    We continue to work closely with other agencies, however, 
under the authorities of the Clean Water Act that authorize us 
to do so.
    Mrs. Capito. OK. Thank you.
    Guidance documents also have had significant impact on the 
issuance of the 402 permits. In West Virginia, for instance, we 
have 724 applications for NPDES permits for mining activities 
pending in January of 2013. To put that in perspective, we only 
had 306 applications pending in 2008.
    What do you feel is a reasonable amount of time that a 
permit applicant should have to wait in order to secure a 
permit?
    Ms. Stoner. Some are more complex than others, but it is 
very important that the agencies work together effectively to 
issue those permits as rapidly as possible after ensuring they 
meet the requirements of the law.
    Mrs. Capito. Are you doing anything to help with the 
backlog that exists right now to speed that up?
    Ms. Stoner. We absolutely are working very closely with our 
colleagues at the Corps and with our State colleagues, because, 
as you know, through Appalachia, the States are issuing the 
NPDES permits, to ensure that those permits are issued in 
compliance with the law.
    Mrs. Capito. Well, you may be aware that I introduced a 
bill to try to make definitive the length of the process so we 
could have some predictability and stability in this.
    So I am not sure what the future of that is, but that is 
something that we will be talking about hopefully in this 
subcommittee, sir.
    The other court case that I would like to talk about is the 
EPA v. Mingo Logan.
    Ms. Stoner. Yes.
    Mrs. Capito. And, as you know, I disagree with this 
decision, but the U.S. Court of Appeals upheld EPA's authority 
to retroactively veto a permit. As you know, this opinion has 
created widespread anxiety in the coal-mining industry. And EPA 
argued successfully that it has the authority to take away a 
404 permit irrespective of whether the permit holder is 
complying with the terms of the permit.
    But if we look back to the deliberations on the Clean Water 
Act originally, there were three hallmarks for permitting 
regulations that exist: One is uniformity, one is finality, and 
one is enforceability.
    Do you agree that finality is an important consideration 
for permits? In other words, when they have been finally 
issued, are they finally issued?
    Ms. Stoner. So the court held that the 404(c) authority 
allows the withdrawal of a specification, so a particular 
location for the discharge of material, when certain findings 
are made. So the permit remains, and the permit allows 
continued mining at that operation as at others. But those 
specifications that we had moved to withdraw, the court found 
was appropriate under the statute itself. It was an 
interpretation of the statute itself, the Clean Water Act.
    It is important to keep in mind, of course, that we use the 
404(c) authority extremely rarely. So it is about 13 times ever 
in the history of the Clean Water Act, which has been 40-some 
years now, 41 this year I guess. So we use it very rarely, and 
we would only use it for particular instances of grave concern.
    Mrs. Capito. Well, as you can imagine, this isn't just coal 
mining, it is other entities that are seeking these types of 
permits. And the chill of investment--if you feel that you have 
put 10 years, which this company did, into securing a permit, 
working it and reworking it, working under the permit, and then 
having it yanked out from under them after probably millions 
and millions of dollars of investment, you can imagine what 
that does to chill the investment in anything, not just coal 
mining, in the area.
    I have a final question. In 2002, the EPA and Corps of 
Engineers adopted a joint regulatory definition of fill 
material. The current rule includes fill materials that, when 
placed in the waters of the U.S., had the effect of raising the 
bottom elevation or filling the water, and maintains the proper 
legal distinction between discharges between the 404 and the 
402. However, EPA and the Corps have stated that they are now 
considering revising that definition.
    What specific problems with the current rule is the EPA 
having?
    Ms. Stoner. We have no active discussions with the Corps on 
revising that rule at this time.
    Mrs. Capito. OK. Thank you.
    Mr. Gibbs. Ms. Kirkpatrick?
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    Ms. Stoner, the Navajo Nation EPA obtained primacy for the 
public water supply supervision program in 2000, and the Navajo 
Nation EPA has done a tremendous job of maintaining compliance 
over 164 drinking water systems. Grants in fiscal year 2014 are 
slated for reductions, although we hope that does not happen.
    So I have two questions, but I am going to ask them 
together so you can answer them together. The first one is, how 
can EPA apply appropriate discretion to maintain resource 
investments in the continuation of the Navajo Nation EPA public 
water supply supervision? And then, what can be done to elevate 
the resource issues to support the establishment of base 
funding allocations for the Navajo Nation public water supply 
supervision program?
    Ms. Stoner. So the cuts that we have taken under the 
sequester are across-the-board cuts designated for particular 
programs, so we have very limited discretion to protect 
particular programs.
    We do continue to work closely with the tribes on those 
programs, and including with the Navajo, and have put 
particular attention on ensuring that the drinking water 
systems and the compliance is as good on tribal lands as on 
other lands. And we actually have a measure to measure how well 
we are doing on that. So it is a priority for the Agency.
    Mrs. Kirkpatrick. Do you see another source of funds to 
continue that project?
    Ms. Stoner. I think that if we continue to have continued 
funding under the PWSS program, there is a specific amount of 
that that goes to the tribes. So the more funding in that 
program generally, the more funding we will have available for 
tribes.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. I yield back.
    Mr. Gibbs. Mr. Hanna?
    Mr. Hanna. Thank you.
    Ms. Stoner, do you believe the EPA jurisdictional authority 
to regulate water is limited or unlimited--and this isn't meant 
to be an accusation or any inference whatsoever--limited or 
unlimited under the Clean Water Act?
    Ms. Stoner. It is limited. And it is actually more limited 
than it used to be under the two Supreme Court decisions 
addressing the scope of Clean Water Act jurisdiction.
    Mr. Hanna. To that end, Congress has expressly opposed 
legislative attempts to remove the word ``navigable'' from the 
law and replace it with a new term, ``waters of the United 
States,'' as broadly defined by the EPA.
    Isn't this exactly what the EPA's so-called guidance 
attempts to accomplish?
    Ms. Stoner. The guidance that was put out in proposal and 
as a draft is currently pending, would seek greater clarity 
about the question that you ask. So it is currently somewhat 
muddled as to where the scope of jurisdiction lies and where 
the line lies that you ask about----
    Mr. Hanna. What is your opinion about what you would like 
to see in the language? What would you like to see, ultimately, 
that language to be?
    Ms. Stoner. We would like to see greater clarity that helps 
the Federal, State, local agencies and local entities----
    Mr. Hanna. What does that mean to you, though? Which way 
would you go, ``navigable'' or ``waters of the United States''?
    Ms. Stoner. Well, both are currently in the Clean Water 
Act, but what we would like to do is to interpret the language 
of the Clean Water Act in light of those Supreme Court cases to 
provide greater clarity on that question.
    Mr. Hanna. I understand that numerous stakeholders, 
including the U.S. Conference of Mayors, National Association 
of Counties, League of Cities, National Association of Clean 
Water Agencies, are strongly urging the EPA to update its 
affordability guidelines to better reflect the financial needs 
that communities are facing in trying to meet multiple unfunded 
regulatory mandates.
    What are the EPA's plans to amend the affordability 
guidelines, if any? And why does the EPA, if it is, why does it 
seem to be so resistant to these changes?
    Ms. Stoner. We are actually in very productive discussions 
with the National League of Cities, Conference of Mayors, and 
the National Association of Counties, on issues of financial 
capability. I would not say we are resistant at all. In fact, 
what we are doing is working out a range of factors that can be 
considered on financial capability to address those concerns. 
And it is a very productive dialogue that----
    Mr. Hanna. Can you break that down a little bit more? Can 
you say what that might look like and what kind of timeline we 
are looking at?
    Ms. Stoner. Well, the discussions are occurring now, and I 
believe--we just had one meeting, and I believe there are two 
more ahead to discuss this in more detail.
    Cynthia Giles, my colleague in the enforcement office, and 
I already issued a memo explaining the general idea about 
financial capability and considering a broader range of 
factors. And what we are working on now is what further detail 
on that would include.
    Mr. Hanna. All right. Well, thank you.
    Mr. Stanislaus, since 1995, thousands of brownfields sites 
have been assessed, and well over 2,000 properties have been 
made ready for reuse.
    Can you talk a little bit about the progress for that reuse 
and how successful it has been? Not just the cleanup, of 
course, but there are 2,000 sitting out there. What kind of 
actions are you taking to dispose of these properties and to 
facilitate new companies, new use of these properties?
    Mr. Stanislaus. Sure.
    And I actually think the program is very successful, but we 
have lots of challenges. On a yearly basis, we are only able to 
fund about one-quarter of all requests.
    And the tools that we provide are generally in the category 
of grants for investigating a site to determine how 
contaminated the site is. We provide cleanup resources, we 
provide redevelopment resources. And, generally, it is led by 
local governments.
    Mr. Hanna. How many of these sites, can you give me an 
estimate of how many are actually being used for some other 
purpose?
    Mr. Stanislaus. Yes, I can give you a comprehensive list, 
but let me give you an overall summary.
    Mr. Hanna. OK.
    Mr. Stanislaus. Roughly, every dollar of U.S. grants 
leverages about $18 of private and public investment. And the 
reason for that is, because particularly on the site assessment 
side, it provides more certainty so the private sector can 
underwrite these projects.
    And, in fact, I got together with a number of local leaders 
and developers just last week at our semiannual meeting to 
bring actors together to redevelop----
    Mr. Hanna. My time is almost up, but do you think that 
there is enough certainty? Do you imagine, after working 
through this, there are ways that the Government can either 
take on more legal responsibility or relieve the downside 
potential to companies in order to facilitate their interest in 
these properties?
    Mr. Stanislaus. Well, I would have to consider more the 
liability question. What we have done is to provide even 
further liability clarification.
    For example, we recently had a conversation with those who 
were interested in siting clean energy on contaminated 
properties. You remember, developers and financiers. And they 
thought that we needed to provide further liability 
clarification for lessees.
    Under the Brownfields Law that was passed a number of years 
ago, it provided certainty for owners but not lessees. So we 
have recently issued further clarification, which can be used 
in the underwriting process to provide that kind of certainty.
    Mr. Hanna. Thank you.
    My time has expired, long past. Thank you.
    Mr. Gibbs. Representative Hahn?
    Ms. Hahn. Thank you, Mr. Chairman, Ranking Member Bishop. I 
am glad we are having this hearing.
    I just wanted to start by going on the record, and I know 
everybody doesn't have the same experience that I have, but I 
have really found in the areas that I represent out in Los 
Angeles that we never really had to choose between protecting 
our environment and creating jobs.
    In fact, what I found was cleaning up the air and cleaning 
up the water at the Port of Los Angeles actually created jobs. 
And, with our insistence that the Port of L.A. clean up its 
act, we actually created a laboratory where we had just 
numerous small businesses and entrepreneurs who were able to 
start up businesses that helped to clean up the port and gave 
them a consistent and reliable reason to create businesses and 
products and technology that would continue to support that 
mandate.
    So I never had to choose between clean air and good jobs. I 
think we can do both.
    I am going to follow up on my friend and colleague, Mr. 
Hanna's line of questioning about brownfields. And many of the 
communities that I represent have significant brownfields, and, 
you know, they are the recipient of decades of being used as a 
dumping ground for a lot of the rest of Los Angeles. The city 
of Carson is one of those, and they are discovering that these 
brownfields sites represent significant development 
opportunities on valuable, well-located land. And what they are 
doing now to clean, remediate this is impressive. It is 
creating jobs and growth and opportunity.
    But, Mr. Stanislaus, in what you just said, that every 
dollar of EPA brownfields spending leverages nearly $18 in 
private and public funding, of course I am sitting here 
troubled by the administration proposing to cut brownfields 
grants by $9 million. And, by your math, you know, cutting this 
$9.1 million is really a $173 million cut to brownfields 
projects that are creating jobs, rejuvenating communities, and 
figuring out a way to deal with these brownfields.
    So when we are so desperately in need of jobs and 
opportunity that these brownfields remediations have provided, 
how can the EPA ensure that this proposed cut does not 
adversely impact the progress of brownfields remediation 
activities across our country and in my district? And how can 
we leverage more private funding when we are losing a 
significant leverage tool in this grant money?
    Mr. Stanislaus. Well, thank you. And, you know, ideally, we 
would not have that cut. You know, we are in this constrained 
budget time that we have right now. And so we tried to minimize 
the cut to the greatest extent we can.
    So it will have impact in terms of the total numbers of 
grants that we can give and reduce the number of communities 
that we can touch. But despite that, you know, we will try to 
aggressively, one, get the money out as quickly as possible, 
shrinking that time period to get the money out as quickly as 
possible.
    When I have had a series of discussions with local leaders 
around the country, in these budget-constrained times, the 
single most important activity they underscored in today's 
climate is technical assistance, on-the-ground technical 
assistance, probably even more than grants in a lot of cases.
    So we are really ramping up our technical assistance, both 
our direct technical assistance in terms of staff time, our 
contractor assistance. We recently awarded an independent 
technical assistance provider to provide capacity to local 
governments so they can compete for resources in a way that we 
cannot.
    So those are some of the things we are trying to do. The 
other things--in fact, last week, when we brought together 
probably about 28,000 various folks from around the country, 
you know, we continue to want to provide resources and 
technical assistance to them to advance their projects. And 
that is some of the various things that we are trying to do.
    And I should also underscore, which I always like to do, 
the increase of property values.
    Ms. Hahn. Uh-huh.
    Mr. Stanislaus. So it is not only the direct leveraging. 
Our studies show that within a mile of a cleanup of brownfield 
sites increasing property values from 5.1 percent to 12.8 
percent. So it directly relates to increases in local tax 
revenue, you know, property values. So there is a lot of 
stimulative effects of brownfield sites. That is why I am a big 
champion of that.
    Mr. Gibbs. Mr. Crawford?
    Mr. Crawford. Thank you, Mr. Chairman.
    And thank the witnesses for being here today.
    Ms. Stoner, I want to focus on EPA's regulations of on-farm 
fuel storage. It has been a source of constant frustration for 
farmers in my district and, I suspect, across the country, as 
well.
    The most recent continuing resolution, H.R. 933, included a 
provision, section 1416, that bars the EPA from enforcing the 
Spill Prevention Control and Countermeasure Rule that went into 
effect on May 10th.
    If your agency can't legally enforce these rules at this 
time, then why does the EPA's SPCC Web site still direct 
farmers to be in compliance by May 10th?
    Mr. Stanislaus. So----
    Ms. Stoner. I am going to direct that question to my 
colleague.
    Mr. Stanislaus. That is actually my question.
    Mr. Crawford. My apologies.
    Mr. Stanislaus. Sure.
    So, you know, we have done extensive outreach with the 
farmers, going back probably, I would say, 10 years or so, to 
put in place the proper balance of the protections to prevent 
oil spills. And I think we, I think the farmers, the farm 
bureaus, we all agree that preventing oil spills is a good 
thing and limits, prevents impacts on farmland, it prevents 
impacts on local community water sources.
    So, given that, we have tried to make it as lean as 
possible. And just to be clear, the SPCC rules only cover farms 
that have a significant size of oil tank. So, of the total farm 
universe, it is less than 10 percent. And, of that 10 percent, 
95 percent is basically self-implementing. So basically they 
put together their own plans, they have a file so that they can 
ensure that oil spills do not happen.
    And so, we believe we have done a lot to really accommodate 
the farmers and the farmers' compliance. And, actually, we have 
had a great exchange with the farming community in terms of the 
rules themselves.
    Mr. Crawford. OK. Well, with all due respect, you haven't 
answered my question. What I want to find out is, why are you 
directing them to be in compliance when you don't have the 
authority to enforce the compliance based on the section 1416 
of H.R. 933, which extended that beyond May 10th? So I am just 
wondering why you would direct them on your Web site to be in 
compliance on May 10th.
    I guess my followup question would be, when the CR expires, 
is the EPA retroactively going to enforce those regulations if 
farmers weren't in compliance by May 10th?
    Mr. Stanislaus. Well, again, our primary objective is to 
work with farmers to put in the protections necessary. So that 
is what we will continue to do. And we continue to have 
exchanges with the farming community to do that. And I think it 
is a win-win for us to be doing that.
    Mr. Crawford. OK. So you will not, then, enforce 
retroactively for those farmers that are not currently in 
compliance?
    Mr. Stanislaus. Well, let me get back to you in terms of 
that.
    You know, again, our primary role here is not lead with 
enforcement; our primary role is to lead with compliance. And 
that is why we have done lots of outreach with the farming 
community, going back multiple of years. We have actually 
developed informational materials with the farm bureaus to 
distribute to the farmers. We have really worked on making sure 
during the nongrowing season that we do a lot of outreach to 
them. So I think we are really working hard to work with the 
farming community.
    Mr. Crawford. Well, I appreciate that, but you just said 
you lead with compliance, and a key component to compliance is 
enforcement. My concern is that farmers won't be retroactively 
penalized based on a compliance date that was superceded by the 
current CR that is in effect right now.
    So I am concerned about that. And I just want to restate 
for the subcommittee here, I hope that we do something about 
this very soon because there are a whole lot of small farmers 
out there, and the thresholds that you have prescribed under 
the Clean Water Act really are unreasonable, 1,320 gallons. And 
hopefully we can address that.
    I want to switch gears real quick, as my time is limited 
here.
    Along with Chairman Gibbs, I also sent a letter on March 
12th requesting some information regarding the EPA release of 
sensitive information to environmental groups. Have not yet 
received a response to that letter. So I am also very 
frustrated with that, as well.
    But can you tell me and tell the committee what the process 
used by the EPA was to acquire released information from State 
agencies?
    Ms. Stoner. So we contacted States directly and asked them 
for publicly available information to help us implement the 
Clean Water Act's requirements----
    Mr. Crawford. OK, let me ask you this: Do you know, was 
there any information such as a Social Security number 
possibly, GPS coordinates, and so on that would identify the 
exact locations of any of these production facilities?
    Ms. Stoner. I am not aware of seeing any Social Security 
numbers. There were some addresses that were part of the 
information. And, as you know, we have taken steps to redact 
the information, where there were privacy concerns having to do 
with individuals, and have taken that step and have asked for 
the other data back, which we have received.
    Mr. Crawford. Well, thank you. I am out of time. But, 
unfortunately, redacting after the fact does little to protect 
those farmers in question.
    I yield back.
    Mr. Gibbs. Mr. Mullin?
    Mr. Mullin. Real quick, I want to reiterate what Mr. 
Crawford was saying. As an active farm operator, it is absurd 
to me that the EPA is going to start coming on our land trying 
to tell us how to take care of stuff we have been doing for 
years. I can assure you, you are not going to find anybody that 
has more pride in their property than someone like myself that 
has been on the same land for four generations. We don't need 
the EPA to come in and start telling us how to take care of 
something we have been doing for years. That is not my 
question. That is just me venting.
    Now, my question is, though, the EPA Scientific Advisory 
Board recently announced their independent panel of 31 experts 
to study the EPA's conduct on--or conducting on hydraulic 
fracturing. And how did these experts get chosen?
    Ms. Stoner. I believe you are asking about a question of 
the study being done by the Office of Research and Development. 
So that is not a study that we are doing out of my office, but 
we would be happy to provide that information to you.
    Mr. Mullin. So you guys don't know how the panel was put 
together?
    Mr. Stanislaus. It was set up, as Nancy noted, by another 
office. We can get you that information, how the experts were 
selected.
    Mr. Mullin. Well, I mean, I think that would be pretty 
important, just for the simple fact--and I just want to point 
out something here. The panel, 60 percent of those, of the 31 
that are on that panel, 60 percent of them had direct funding 
from the EPA, 60 percent of them. Now, out of that, Missouri is 
on there, Washington is on there, North Carolina has three 
universities on there, Penn State has two, Colorado has four. 
Oklahoma, who has, as we speak, 149 active fracking sites. We 
gave out 10,000 permits last year alone, not on there. North 
Dakota, where we are hearing all this stuff going on, not one 
person is on there.
    Something needs to be checked in on this panel. I really 
hope this doesn't have to do with an agenda. I would really 
hope that this panel was put together for the purpose of truly 
giving an independent study point of view. But everything we 
are seeing, that is not going on. What we are seeing is the EPA 
once again has their own agenda, has nothing do with getting it 
right. It has their own agenda.
    And so I would appreciate it if you guys could bring that 
to my office or at least get it sent to me.
    Mr. Speaker, I yield back. Thank you.
    Mr. Gibbs. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman.
    First off, thank you both for coming in today.
    You know, if you are a farmer or a producer and you look at 
the news for the last few years, you are kind of concerned with 
your agency. You had proposals to further regulate farm dust, 
proposals to treat milk spills like oil spills. I know there 
has been a lot of discussion about the ``navigable'' term out 
of ``navigable waterways.'' And, also, your agency admits to 
releasing personal information on over 80,000 livestock 
producers to activist groups.
    As you can see the hits, they keep on coming to the 
agricultural community. And I must ask, are you personally 
aware of the disconnect between the agency you work for and the 
people that I represent in the agricultural community?
    Ms. Stoner?
    Ms. Stoner. So we have set up a group to supplement the 
usual group that we have to periodically discuss issues with 
the agricultural community to try to improve the communication 
and understanding on issues like the ones that you raise.
    We are well aware of the benefits to clean water from 
having land in farming, particularly, as opposed to developed. 
And we also recognize what good stewards of the land farmers 
are in the United States.
    So we are actively working with those groups to improve 
communication on issues on which we have had some difficulties. 
And I will acknowledge that we have had some, and we are doing 
the very best we can to improve that situation.
    Mr. Davis. Ms. Stoner, thank you.
    I had an idea, and I successfully included an amendment to 
the farm bill that would provide agriculture with a place at 
the table whenever EPA is proposing a new regulation that deals 
with ag. My amendment does three simple things. It increases 
the USDA review of the EPA regs that just affect the 
agriculture industry. It sets up a mechanism where farmers can 
just provide you input on these regulations. And then it 
summons an ag review panel that submits a report and 
recommendations to EPA on the concerns of the ag community.
    Given the principles that I have outlined, does the EPA 
support this type of involvement by the agricultural community 
and the USDA?
    Ms. Stoner. I am not familiar with the details of your 
specific legislation, and I don't believe the administration 
has a position on it right now.
    I will note, though, that every person in the United States 
has the opportunity to comment on proposed rules and that there 
also is a process under which USDA and other agencies work 
through the clearance process that we go through with OMB on 
every rule, so that those opportunities exist now under current 
law.
    Mr. Davis. OK. Well, I mean, you are saying that the 
farmers and the agriculture industry is already involved in the 
regulatory process. I just can't fathom, then, how the EPA 
explains some of the issues that have come out of your agency 
that I mentioned earlier. I just think there is a disconnect, 
and I think it demonstrates a lack of understanding that I was 
just discussing.
    I think the EPA needs to provide better access to the 
agricultural community so that we are not--we are dealing with 
issues so that your agency understands the ag sector on the 
front end, rather than having to fight back those proposed 
rules and regulations on the back end.
    I urge you to take my message back to your agency. And if 
there is any way I can help facilitate that and facilitate that 
type of message with the EPA and with the USDA, I am more than 
willing to do that so that we don't have hearings like this or 
future hearings to discuss what I consider adversarial rules 
and regulations to the many constituents that I represent in 
central and southwestern Illinois.
    But, again, I do want to thank both of you for your time 
today. I know it is long and arduous to sit in one of these 
hearings. I commend you for doing so. And I want to say thank 
you again on behalf of this subcommittee.
    And, Mr. Chairman, thank you for your leadership on this 
issue. And I would like to yield back my time.
    Ms. Stoner. Thank you.
    Mr. Gibbs. I will start giving myself some time here for 
questions.
    Ms. Stoner, back on spending and spending priorities, it 
has come to my attention there is a $12 million request to 
design a new federally owned facility in Las Vegas. And I guess 
I want to know about that.
    Is this going to be--in a time when we have budget 
restraints and there are more pressing needs than to build new 
facilities, I hope this isn't a start of a new construction 
program. So can you address a little bit what the priorities 
are? And are you getting into the building business?
    Ms. Stoner. My understanding is that what you are referring 
to is a lab that is not part of the Office of Water budget, so 
I am not familiar with the request that you are asking about.
    Mr. Gibbs. OK. Because I believe it is going to be referred 
to as the Harry Reid building, if that stimulates any----
    Mr. Stanislaus. Yes. We will get back to you. I am not 
familiar with it either.
    Mr. Gibbs. OK. OK.
    I wanted to talk a little bit about how the past 
subcommittee hearings in the last Congress, we had some good 
discussion, I think, on the integrated permitting initiative.
    Ms. Stoner. Uh-huh.
    Mr. Gibbs. And since then, we have had some other hearings, 
some of the local stakeholders in, and concern that it is not 
really functioning. I am not so sure that your agency has 
really been aggressive enough to get that program going, help 
the municipalities, and craft an acceptable integrated plan.
    What is the status? Are you looking at maybe doing 15 or 20 
pilot projects? Because this is an area where I think we can 
really help on the cost side and actually get something done to 
improve the environment.
    Ms. Stoner. Yeah, we appreciate your support for that 
program, and it is moving forward. The goal of it is to work 
with communities to prioritize their investments so that they 
can achieve as much as possible with the dollar, given the 
difficult fiscal times in which we find ourselves.
    And that program is moving forward. There is a lot of 
interest in it across the country. We have not had to turn away 
anyone yet, so we are not actually in the pilot project mode, 
in the sense that we are talking to everyone who is interested 
in it. It is voluntary for them to decide whether they would 
like to participate in integrated planning. And those who do 
are working with their State and with EPA to move forward to do 
so.
    We are also making sure it is implemented consistently 
throughout the country through regular calls with the regions 
as well as quarterly meetings between Cynthia Giles and the 
enforcement office and myself to go through the docket of where 
these discussions are occurring to make sure they are moving 
forward smoothly.
    Mr. Gibbs. Just a suggestion, since we were just talking 
about the $12 million construction project in Las Vegas, maybe 
that might be well better spent on pilot projects for this 
integrated permitting.
    A question on that. Is your agency putting out to the local 
authorities what you would like to see, what kind of projects? 
Are you trying to stimulate the thought process to try to 
stimulate the interest? I know there is interest at the local 
level, but maybe they need some parameters or some guidance.
    Ms. Stoner. Right. So we actually did put out a document 
that helps communities identify what elements of an integrated 
plan would like look. And we have urged them to come in early 
to talk with both us and the State permitting authority to 
figure out how to do that together constructively, to develop 
an integrated plan that can move through the system. So that is 
how we are addressing that.
    Mr. Gibbs. OK.
    We have also heard that there are some EPA regional offices 
where certain cities with the combined sewer overflows promised 
to keep on spending in the limit where they can afford to solve 
the combined sewer overflow problems, even if spending more 
money will not result in meaningful water quality improvements 
and substantially less costly controls are available that will 
meet water quality standards.
    I thought the EPA Deputy Administrator and you both have 
said that the EPA would not make cities spend the limits of 
their affordability without getting meaningful water quality 
benefits. My question is, what is your policy in spending to 
the limit of affordability? And why aren't all the regions 
listening to the DC office?
    Ms. Stoner. There is no required spending amount, but it is 
often expensive to address combined sewer overflows. And so 
part of what we are trying to do is to make sure we are 
identifying the most cost-effective approaches and working on 
those with communities to make sure every dollar is well-spent 
and achieves improved water quality.
    Mr. Gibbs. Do you have affordability guidelines that you 
work with with local municipalities?
    Ms. Stoner. Right, so we are currently working--in addition 
to integrated planning, we are working with local governments 
on identifying a broader array of factors to be considered on 
financial capability, as well, to ensure that there is a good 
understanding on that. But there has never been a minimum 
spending amount.
    Mr. Gibbs. My understanding is that you have guidelines and 
you are trying to revise them. Are you working through a 
revision of those guidelines for affordability?
    Ms. Stoner. We are working to do something on financial 
capability similar to what we did on integrated planning. And 
so that would be some kind of a framework or strategy document 
that we would work on with the Conference of Majors, National 
League of Cities, and National Association of Counties.
    Mr. Gibbs. I hope it progresses quicker because I think we 
had this discussion 2 years ago, and it doesn't seem like we 
have moved far and fast enough. So maybe we ought to try to 
prioritize that. Because I think that would really help 
municipalities meet their clean water standards and do it in a 
way they can afford to do it.
    Ms. Stoner. Again, thank you for your support.
    Mr. Gibbs. Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman.
    Very briefly, I share the concern that Congresswoman Capito 
has with respect to the length of time that it takes for 
permits to be reviewed and granted, and I indicated that in my 
opening statement.
    My question is, I am assuming that if there is an 18-
percent cut across the board to EPA that that means some people 
who currently work for the EPA will lose their jobs. Is that 
correct?
    Ms. Stoner. I can't tell you specifically how we would take 
such a cut, but it would certainly impair our ability to do our 
job, including working with States on permitting----
    Mr. Bishop. And so, if there were fewer people available to 
review permits, it is reasonable to assume that an already-
lengthy permitting process would become even more so; is that 
correct?
    Ms. Stoner. I think that is fair to assume.
    Mr. Bishop. OK. Thank you. And I thank you very much for 
the work that you do under pretty adverse circumstances, and I 
thank you for your testimony today.
    I yield back, Mr. Chairman.
    Mr. Gibbs. OK. I think I have just a couple more questions.
    On stormwater, the EPA has initiated a controversial 
national rulemaking to establish a potentially far-reaching and 
costly program to regulate stormwater discharges.
    What is the status of rulemaking? And when can we expect to 
see a proposal? And how long will the public comment period be?
    Ms. Stoner. So I don't have answers to all of the details 
that you are asking me about. We are working on a stormwater 
rule which we actually think will, again, address these cost-
effectiveness issues that we have been talking about in terms 
of the problems associated with water pollution that cities 
face, many of which have to do with population growth and 
urbanization and so forth.
    So this is part of the approach that we are taking to help 
to bring down those costs. And we are continuing to work on 
that. And I actually have been doing a series of roundtables 
across the country to get more input from cities and others on 
the proposals we are developing now.
    Mr. Gibbs. OK.
    Also, I know the question came up earlier, but I wanted to 
follow up a little bit more, because there has been so much 
concern out in the country, especially in the rural areas with 
agriculture. What do you believe the EPA's jurisdictional 
authority to regulate water is? Is it limited or unlimited of 
the Clean Water Act? Where do you think that authority ends? 
When you talk about navigable waters, just where do you see the 
Agency?
    Ms. Stoner. So that is exactly why we would like to put out 
a clarification, because that question is one that comes up 
often across the country by individuals who are trying to 
determine whether they need permits or not. So many of them are 
concerned that the jurisdiction is unclear, that they just 
assume there is jurisdiction and move ahead with the permitting 
process.
    So we think it would be better to clarify the scope of the 
Clean Water Act and the limitations that do exist. And there 
are limitations. And so we would like to get that clarified.
    Mr. Gibbs. Would you agree that in, I guess it was 1972, 
when the Clean Water Act was enacted into law--it has always 
been my understanding, it was enacted into law under the 
constitutional authority of the interstate Commerce Clause 
because the word ``navigable'' was in there. Would you agree 
that ``navigable'' is a key word to the constitutionality of 
the Clean Water Act?
    Ms. Stoner. What I would say is that there was a broader 
scope of jurisdiction under the Clean Water Act earlier than 
there is now. And some of that was based on the Commerce Clause 
and the use of waters by migratory birds. And the Supreme Court 
has indicated that use by migratory birds is not sufficient. 
There is a narrower scope of jurisdiction under the Clean Water 
Act that----
    Mr. Gibbs. That would be your opinion, right? That you 
think there is--because I would----
    Ms. Stoner. I think it is pretty well-recognized, but, yes, 
it is my opinion that the Supreme Court narrowed the scope of 
jurisdiction that was previously recognized across the country 
under the Clean Water Act.
    Mr. Gibbs. Interesting.
    I just want to also ask, we talk about the nutrients in the 
numerical versus narrative standard. Can you tell me where the 
EPA is on setting criteria? Are you moving more toward the 
numeric in some areas? Are we still using more of the 
narrative? Or where are we at?
    Ms. Stoner. So I appreciate you asking that, particularly 
in light of your opening remarks about partnerships. So we have 
indicated that our approach is to work with States on statewide 
nutrient reduction strategies and on criteria.
    So numeric criteria do help States implement programs to 
help address problems associated with nutrient pollution, like 
algal blooms and nitrate contamination of drinking water and so 
forth. And so what we have been doing is working with those 
States that are interested in doing numeric nutrient criteria 
to help them with the science, with technical assistance, to 
have criteria that work for them in their program.
    Mr. Gibbs. Are there some issues with your own science 
advisory board? I think they have expressed concerns about 
using the numerical standard.
    Ms. Stoner. I think that there was a document at one point 
that they made comments on. That was some period of time ago. I 
think we have already addressed those comments.
    But what we are doing is making sure that we have a sound 
scientific basis for all the work that we do with our State 
partners on developing numeric criteria.
    Mr. Gibbs. Did I understand you correctly to say that some 
States are moving forward, mostly using the numeric?
    Ms. Stoner. Yes. There are some States that are currently 
developing numeric criteria, and we have approved a number of 
criteria----
    Mr. Gibbs. About how many States would that be?
    Ms. Stoner. I will have to get back to you on the specific 
answer on that, Mr. Chairman.
    Mr. Gibbs. OK. My understanding, you could have a high 
nitrogen or phosphorus content in some areas that causes a big 
problem, obviously, with algae blooms and what else. But there 
are some instances where you could still have a high 
phosphorous standard and maybe not have a problem, but it would 
exceed the numeric standard.
    So I don't know, if you move totally to a numeric standard 
and don't use the narrative, will you take in all that is going 
on in that watershed or that water body or river, the pH, the 
water flow, the biology. We just have to be careful we don't 
get constricted to this one-size-fits-all policy that is going 
to cause problems. Because there are different things going on 
all across the country in different water bodies. Is that----
    Ms. Stoner. You are correct that there is no one national 
number that applies to everyone. And that is actually true of 
water quality standards generally. They are set by the States 
based on the uses of the waters.
    But for nutrient pollution, different water bodies 
naturally have different amount of nutrients in them. And so 
that is one of the factors to be taken into account. And we do 
that in developing the science, working with the States to set 
criteria that are appropriate for them.
    Mr. Gibbs. OK.
    There is a provision in the Clean Water Act that aims to 
prevent conflicts of interest with people that get appointed to 
State water quality boards overseeing the administration of 
Clean Water Act permits. EPA's long-existing rules have a 10-
percent income restriction, which has led to problems over the 
years in many States being able to get qualified people to 
serve on such, quote, ``citizens boards.'' Some have attempted 
to use these provisions, in maybe Florida and Maine, as a 
weapon to try to disqualify political appointees from 
environmental agencies.
    Section 304 of the Clean Water Act directed U.S. EPA to 
develop regulations to prevent an individual that receives 
significant income from a permittee or permit applicant from 
sitting on a water quality authority that reviews and issues 
NPDES permits. U.S. EPA has defined ``significant'' to be 
income in excess of 10 percent of an individual's annual 
income. This test applies to immediate family members also.
    Please explain the basis of this decision that led to the 
determination that a 10-percent income threshold was the 
appropriate way to protect against conflicts?
    Ms. Stoner. I believe we are working on a revision 
associated with that.
    Mr. Gibbs. OK.
    It has comes to the committee's attention that EPA's Office 
of Water is considering ways in which it might revise the 
income restriction rule to better reflect the realities and 
complexities of implementing the NPDES permit program, the 
reach of which has greatly expanded over the years since 
passage of the Clean Water Act.
    Can you explain how the Agency envisions developing 
alternatives that would ensure that qualified individuals can 
be appointed to water quality authorities using true conflict-
of-interest tests?
    And that probably is in your vision, I am assume you are 
going to tell me.
    Ms. Stoner. Yeah. Those are the issues that we are looking 
at in the revision, yes, sir.
    Mr. Gibbs. What about timing? You are working on the 
revision. Do you have a timetable?
    Ms. Stoner. Not one that I can share with you now, but we 
would be happy to get back to you on that.
    Mr. Gibbs. OK.
    I do have another issue here that I guess I might as well 
bring up, since nobody else is going to ask a question.
    Apparently, there is, in Region 9, in the San Diego area, a 
continue to push permit users in California to impose a numeric 
influence standard for bacteria in permits based on EPA's 
November 2010 memorandum that is still not approved and 
finalized through the OMB review process.
    In light of the recent Eighth Circuit opinion in the Iowa 
League of Cities case finding the practice to violate 
Administrative Procedures Act requirements, does the EPA intend 
to withdraw the November 2010 memorandum?
    Ms. Stoner. So the water-quality-based effluent limits that 
are in MS4 permits are not reliant on that memo. They are 
actually reliant on the regulations and the findings that 
States make that waters are impaired and that they are impaired 
by stormwater.
    So the memo is not actually critical to that 
decisionmaking, which is an authority that the Ninth Circuit 
has found that the Agency has under the stormwater program to 
implement water-quality-based effluent limits to protect water 
quality. And that is what is being addressed in those permits 
that you are asking about.
    Mr. Gibbs. OK.
    Well, I guess we will conclude, and I appreciate----
    Mr. Davis. Mr. Chairman?
    Mr. Gibbs. Oh, yes? Go ahead. Yes.
    Mr. Davis. Thank you, thank you. And I apologize, but I am 
glad the chairman brought up the NPDES permit process.
    A few years ago in my previous job, I was working with many 
stakeholders in rural areas who were concerned about the EPA 
regional office that covers Illinois, their attempt to work 
with the Illinois EPA to regulate and require testing of above-
ground septic system discharge systems, commonly known as 
aeration systems.
    Is there a national push by your agency to require an NPDES 
permit for individual systems, above-ground discharge systems?
    Ms. Stoner. No.
    Mr. Davis. OK. OK. So that was a regional push and----
    Ms. Stoner. Septic systems are problems in some areas. They 
are covered by the Nonpoint Source Program. And when they are 
problematic, we work with States to use the 319 funds that we 
can provide or other State authorities. And States may have 
different authorities than we do to address septic system 
pollution.
    It can be a big problem in some areas, and so we do like to 
work to address that. Sometimes it can be addressed by 
something as simple as helping people clean out their septic 
systems. So if you have one, you should make sure you clean it 
out periodically. But they can cause some bacterial kinds of 
contamination and nutrient pollution of waterways nearby.
    Mr. Davis. Well, thank you. And I do have one, and I do 
clean it out periodically.
    There was a big concern, though, that the State and the 
regional office were going to require in Illinois testing of 
discharge on each and every above-ground septic system, 
aeration system, throughout the State, which would inordinately 
hurt some of the most rural and poorest areas of the State of 
Illinois. I know that that push was a few years ago. I am glad 
to hear that there is not a national push from the EPA to do 
that.
    And I would encourage your agency to work with those 
regional offices in the States to understand the impact that a 
proposed rule like this might have. And the fact, in Illinois, 
where I live, we didn't have the testing facilities that would 
be able to take the tests and figure out whether or not someone 
passed. There were no further rules about how many tests is it 
going to take to actually prove, if you failed, if you are now 
up to your standards.
    It was an issue that was big a couple of years ago. It is 
one that I hope doesn't become a major issue again. And I hope 
all of the septic system owners like myself do clean their 
systems out and do take advantage of the technology that is out 
there, because it is not a permit that should be needed on an 
individual basis in rural States like mine.
    So thank you for clarifying that. Thank you again for your 
time today.
    And I yield back, Mr. Chairman.
    Mr. Gibbs. Thank you.
    I just wanted to close by just kind of a statement that I 
think today we learned that--I am happy to see you recognize 
that agriculture can play a key role in enhancing water 
quality. I am a firm believer of that, especially with a lot of 
the new technologies that are being used, with no-till and min-
tillage practices and grass waterways and all that.
    I am concerned, obviously, we had the issue about public 
disclosure of private information. Hopefully that stays at the 
top your radar screen and is addressed appropriately.
    And, also, we are working--we have challenges out there in 
infrastructure. And I get a lot of people coming into local 
municipalities; they are all under, most of them, some EPA 
edict, combined sewer overflow or overcapacity in the sewage 
treatment plant. And that is why I think the integrated permit 
process, which I know you support, I think would be a key 
initiative to help them. Because there is not just enough money 
to go around. And, hopefully, we can do some things here 
legislatively. One thing I have been working on is a private-
public partnership to bring some resources in, especially in 
that area, that I think could make a lot of sense for both the 
private and public sectors. So, encouraged by that.
    But I think it is also worth mentioning that--I am sure my 
ranking member gets it, too, a lot of his constituents and 
local businesses are concerned about how sometimes the EPA 
operates. I think everybody wants clean air and clean water. 
And I think it is important that as much as we can do to help 
them come into compliance and do the right thing, instead of go 
out and beat them over the head. Sometimes that doesn't always 
work as well either. So I think that is always important, as we 
work as public servants.
    So I want to thank you for both being here.
    And we will conclude this hearing. Adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]

</pre></body></html>
